Review of New Jersey's Efforts to Account for and Monitor Sub-Recipients' Use of Bio-terrorism Hospital Preparedness Program Funds,"(A-02-03-02014)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of New Jersey's Efforts to Account for and Monitor Sub-recipients' Use of Bio-terrorism Hospital Preparedness
Program Funds," (A-02-03-02014)
December 19, 2003
Complete
Text of Report is available
in PDF format (579 KB). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of our review were to determine whether the State of New Jerseys Department of Health
and Senior Services (DHSS) properly recorded, summarized and reported bio-terrorism preparedness transactions in accordance
with the terms and conditions of the cooperative agreement with the Department of Health and Human Services (DHHS), Health
Resources and Services Administration (HRSA) and whether DHSS established controls and procedures to monitor sub-recipients expenditures
of HRSA funds.  We found that DHSS accounted for Program funds in accordance
with the terms and conditions of the cooperative agreement with HRSA.  Specifically, DHSS recorded, summarized and
reported transactions in discrete accounts established to account for bio-terrorism funding.  DHSS officials stated
that HRSA funding had not been used to supplant existing State or local programs.  DHSS did not perform site visits
to its sub-recipients.  We recommended that DHSS consider implementing a site visit component to its procedures for
monitoring sub-recipients and address problem areas, as they are identified.  New Jersey Officials concurred with
our recommendation.